No. 21-- - - - INTHE
SUPREME COURT OF THE UNITED STATES

---โข--MICHAEL STEWARD,

Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pa uperis in
the following courts: United States District Court, Eastern District of California
and United States Court of Appeals for the Ninth Circuit.
The appointment was made in District Court pursuant to 18 U.S.C.
ยง 3006A(d)(7) and the representation was continued to the Ninth Circuit on appeal.

Dated: February 26, 2021

Respectfully submitted,
HEATHER E. WILLIAMS

Counsel of Record for Petitioner

